Office of Inspector General

        SEMIANNUAL 

         REPORT TO 

         CONGRESS 


For the Period April 1, 2009 through September 30, 2009



                Report No. 41 





  “Democracy demands wisdom and vision in its citizens”
National Foundation on the Arts and Humanities Act of 1965
                    THE OFFICE OF INSPECTOR GENERAL 


                                 serves American taxpayers 

                           by investigating reports of waste, fraud, 

                        mismanagement, abuse, integrity violations or 

                         unethical conduct involving Federal funds. 




                               To report any suspected activity 

                     involving NEH programs, operations, or employees 


                                    Call the OIG Hotline

                                      1 (877) 786-7598



                                      Mailing Address

                      Office of Inspector General — Hotline
                     National Endowment for the Humanities
                          1100 Pennsylvania Ave. N.W., Room 419
                                 Washington, DC 20506


                                            Fax

                                       (202) 606-8329


                                  Electronic Mail Hotline

                                        oig@neh.gov




Government employees are protected from reprisal

Caller can remain anonymous

Information is confidential
  NATIONAL                                                                OFFICE OF INSPECTOR GENERAL
  ENDOWMENT                                                               1100 PENNSYLVANIA AVE., NW
  FOR THE                                                                 WASHINGTON, D.C. 20506
  HUMANITIES                                                              ROOM 419
                                                                          TELEPHONE(202) 606-8350
                                                                          FACSIMILE (202) 606-8329
                                                                          1-(877) 786-7598 (HOTLINE)
                                                                          E-mail oig@neh.gov

                                      October 30, 2009

Honorable James Leach
Chairman
National Endowment for the Humanities
Washington, DC 20506

Dear Chairman Leach:

It is a pleasure to welcome you to the National Endowment for the Humanities and respect-
fully submit the Office of Inspector General’s Semiannual Report to Congress for the second
half of fiscal year 2009. The report is submitted in accordance with the Inspector General
Act of 1978, as amended. Section 5 of the Act requires that you submit this report, with your
Report of Final Action, to the appropriate committee or subcommittee of the Congress within
30 days of its receipt. The report provides a summary of the activities of the OIG during the
six-month period ended September 30, 2009.

We did not complete any internal reviews or audits during the current reporting period. We
began our review of the agency’s effort related to the Federal Managers’ Financial Integrity
Act (FMFIA) and reviews to satisfy Federal Information Security Management Act (FISMA)
requirements. The annual audit of the agency’s financial statements was also started during
the current reporting period. The results of these efforts will be reported during the next re-
porting period. External effort consisted of two audits; ten overhead rate desk reviews; and
review of 97 OMB Circular A-133 audit reports.

In our investigations program, we had two matters open as of the beginning of the reporting
period. Both were closed during this period. We received eight “Hotline” contacts during
the period, and only one remains open at September 30, 2009.

Last reporting period, we launched an awareness campaign wherein we distribute guidance
to recipients of NEH grants that would assist in their efforts to preclude unfavorable out-
comes should their grants be selected for audit. We are continuing this initiative which will
reach all non-profit grantees.

I appreciate your support and look forward to working with you and all agency staff to fur-
ther our common purpose of assuring the effectiveness, efficiency and integrity of NEH’s
vital contributions to the humanities in the United States.

                                             Sincerely,



                                             Sheldon L. Bernstein
                                             Inspector General
                                           TABLE OF CONTENTS 



LETTER TO THE CHAIRMAN 


MESSAGE FROM THE INSPECTOR GENERAL………………………………………………                                                                              1


THE NATIONAL ENDOWMENT FOR THE HUMANITIES…… ............................................                                          2


THE OFFICE OF INSPECTOR GENERAL ...........................................................................                       2


AUDIT AND REVIEW ACTIVITIES .......................................................................................               3


INVESTIGATIVE ACTIVITIES ……………………………………………………………………                                                                               7


OTHER ACTIVITIES..............................................................................................................    9


MANAGEMENT CHALLENGES……………………………………………………………….…                                                                                  12 


PRIOR AUDIT REPORTS UNRESOLVED……………………………………………………...                                                                            16 


TABLE I - REPORTING REQUIREMENTS…………………………………………………......                                                                        17     


TABLE II - INSPECTOR GENERAL-ISSUED REPORTS.....................................................                                 18 

WITH QUESTIONED COSTS 


TABLE III - INSPECTOR GENERAL-ISSUED REPORTS WITH .........................................                                      18 

RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE


GLOSSARY OF AUDIT TERMINOLOGY .............................................................................                      19     

                        MESSAGE FROM THE INSPECTOR GENERAL


    Over the past several years, our workload has constantly increased in volume and complexity and, as a conse-
    quence, OIG oversight of the Endowment’s grantees is diminishing.

    The OIG is responsible for engaging and reviewing the work of an independent public accountant that conducts
    the annual financial statements audit. The audit is required by the Accountability of Tax Dollars Act of 2002, and
    applies to many small agencies including the Endowment. The Federal Information Security Management Act
    (FISMA) review has been performed for several years as required. Each year the Office of Management and
    Budget (OMB) issues guidance for the review. The National Institute for Standards and Technology (NIST) Com-
    puter Security Division issues publications that the agency is responsible for implementing. The OIG is responsi-
    ble for reviewing the agency’s implementation. The Government Accountability Office and the Council of Inspec-
    tors General on Integrity and Efficiency periodically update guidance on auditing, inspections and reviews, and
    investigations. This increases the burden on the OIG.

    OMB Circular A-133, Audits of States, Local Governments and Non-Profit Organizations, issued pursuant to the
    Single Audit Act of 1984, (as amended), sets forth audit guidance applicable to the expenditure of Federal awards
    by non-Federal entities. The threshold for an audit is the expenditure of $500,000 or more in a fiscal year. Con-
    sequently, the threshold level eliminates audits for a significant number of non-profit organizations that receive
    grants from the Endowment, including approximately 17 of the 56 state humanities councils. The President’s
    Council on Integrity and Efficiency issued a report on the single audits. The report disclosed that a majority of the
    work performed on OMB Circular A-133 audits did not meet professional standards. Thus, besides having fewer
    NEH grantees subject to the OMB A-133 audit, the reports issued are not totally reliable. This clearly indicates
    that the OIG needs more resources to provide adequate coverage of grantees. In addition, monitoring by pro-
    gram offices is not, in our opinion, adequate.

    Another impact on our oversight of grantees is internal and grantee investigations. Opening an investigation has
    a significant impact on our audit plan because we do not have staff dedicated to investigation work. Therefore, it
    becomes necessary to reassign audit staff trained in investigation work to perform the investigation. With signifi-
    cant fluctuations on a yearly basis, it is difficult to be proactive concerning investigations or realistically budget
    staff time for this effort.

    During the last semi-annual report period, the Deputy Inspector General retired. This person worked in the OIG
    and it’s predecessor, the NEH Audit Office for twenty-five years. In the current period, we promoted an auditor,
    with 16 years experience at NEH and 6 years at the Defense Contract Audit Agency. We also interviewed for an
    auditor position and will be bringing a person on-board mid-November 2009.

    In accordance with the Inspector General Act of 2008, Public Law 110-409, we signed a service agreement with
    the United States Treasury Inspector General for Tax Administration’s General Counsel in fiscal year 2009. They
    are providing legal counsel for the NEH OIG. A new agreement was signed for fiscal year 2010.




NEH OIG Semiannual Report                                     1                                                  September 30, 2009
             THE NATIONAL ENDOWMENT FOR THE HUMANITIES
      In order to promote progress and scholarship in the humanities and the arts in the United States, Con-
      gress enacted the National Foundation on the Arts and the Humanities Act of 1965. This Act estab-
      lished the National Endowment for the Humanities as an independent grant-making agency of the Fed-
      eral government to support research, education, and public programs in the humanities. Grants are
      made through four divisions - Research Programs, Education Programs, Preservation and Access, and
      Public Programs -- and three offices -- Challenge Grants, Federal-State Partnership, and Digital Hu-
      manities Office. The divisions and offices also administer the We the People: NEH’s American History
      initiative.

      Picturing America is a part of the We the People Program. This program “… provides an innovative
      way for citizens of all ages to explore the history and character of American through some of our na-
      tion’s greatest works of art. Images of people, places and events from American history give citizens
      everywhere a chance to better understand our country’s past and the principles for which it stands.”
      Information can be found at PicturingAmerica.neh.gov.

      The Act that established the National Endowment for the Humanities says "The term 'humanities' in-
      cludes, but is not limited to, the study of the following: language, both modern and classical; linguistics;
      literature; history; jurisprudence; philosophy; archaeology; comparative religion; ethics; the history, criti-
      cism, and theory of the arts; those aspects of social sciences which have humanistic content and em-
      ploy humanistic methods; and the study and application of the humanities to the human environment
      with particular attention to reflecting our diverse heritage, traditions, and history and to the relevance of
      the humanities to the current conditions of national life."




                            THE OFFICE OF INSPECTOR GENERAL
       The NEH Office of Inspector General was established April 9, 1989, in accordance with the Inspector
       General Act Amendment of 1988, (Public Law 100-504). In this legislation, Congress established Of-
       fices of Inspector General in several departments and in thirty-three agencies, including the NEH. The
       NEH Inspector General (IG) is appointed by the Chairman. The independence of the IG is an impor-
       tant aspect of the Act. For example, the IG: cannot be prevented from initiating, carrying out, or com-
       pleting an audit or investigation, or from issuing any subpoena; has access to all records of the
       agency; reports directly to the Chairman, and can only be removed by the Chairman, who must give
       Congress 30 days notice of the reasons for the removal; reports directly to Congress.

       The Act states that the Office of Inspector General is responsible for (1) conducting audits and investi-
       gations; (2) reviewing legislation; (3) recommending policies to promote efficiency and effectiveness;
       and (4) preventing and detecting fraud, waste, and abuse in the operations of the agency. The In-
       spector General is also responsible for keeping the Chairman and Congress fully and currently in-
       formed of problems and deficiencies in the programs and operations.

       The OIG staff consists of the Inspector General, Deputy Inspector General, one auditor, and a secre-
       tary. The OIG has a Memorandum of Understanding with the United States Treasury Inspector Gen-
       eral for Tax Administration detailing the procedures for the OIG to be provided legal services. Investi-
       gations are handled by the Inspector General and an auditor.




NEH OIG Semiannual Report                                      2                                                 September 30, 2009
                             AUDIT AND REVIEW ACTIVITIES 


                                           LIST OF REPORTS ISSUED 

  This office is responsible for external and internal audits. External auditing includes grants, pre-award
  accounting system surveys, review of OMB Circular A-133 audit reports, overhead desk reviews, limited
  scope desk reviews, and on-site quality control reviews of CPA workpapers. Internal efforts consist of
  audits, inspections, and reviews/evaluations of NEH administrative, programmatic, and financial operations.
  The OIG is also responsible for monitoring the work of the independent public accountant that conducts the
  annual audit of the NEH financial statements as required by the Accountability of Tax Dollars Act of 2002,
  and examining the audit workpapers and reports to ensure compliance with applicable requirements.

  Following is a list of reports issued by the OIG during this reporting period. The Inspector General Act of
  1978, as amended, requires us to report on the "Dollar Value of Recommendations that Funds Be Put to
  Better Use" and the "Total Dollar Value of Questioned Costs" (including a separate category for the “Dollar
  Value of Unsupported Costs”), [see Table II].

                                                                 Report Number                    Date Issued

  EXTERNAL AUDITS/REVIEWS

  Limited Audit Report on Gifts Certified Under Challenge        OIG-09-02 (EA)                   06/26/09
  Grant to the National Yiddish Book Center

  Results of Follow-up to Limited Report on Gifts Certified      OIG-09-03 (EA)                   08/28/09
  under Challenge Grant to the National Yiddish Book Center



  OVERHEAD DESK REVIEWS

  Gilder Lehrman Institute of American History                   NEH-09-02 (ODR)                  04/02/09
  Library of America                                             NEH-09-03 (ODR)                  08/17/09
  Medieval Academy of America                                    NEH-09-04 (ODR)                  08/17/09
  Center for Research Libraries                                  NEH-09-05 (ODR)                  09/14/09
  Northeast Document Conservation Center                         NEH-09-06 (ODR)                  09/21/09
  Newberry Library                                               NEH-09-07 (ODR)                  09/22/09
  Newberry Library                                               NEH-09-08 (ODR)                  09/22/09
  American Antiquarian Society                                   NEH-09-09 (ODR)                  09/21/09
  Conservation Center for Art and Historic Artifacts             NEH-09-10 (ODR)                  09/24/09
  Bessemer Historical Society                                    NEH-09-11 (ODR)                  09/24/09



  SINGLE AUDIT ACT REVIEWS

  97 OMB Circular A-133 Reports                                                        See Page 4




NEH OIG Semiannual Report                                    3                                          September 30, 2009
                                      AUDIT AND REVIEW ACTIVITIES 


                                             SUMMARY OF REPORTS ISSUED
                                                   EXTERNAL AUDITS/REVIEWS

                               Limited Audit Report on Gifts Certified Under Challenge Grant 

                                           to the National Yiddish Book Center

                                               June 26, 2009; OIG-09-02 (EA) 


        The principal objectives of this limited audit were to determine that 1) the gifts certified under the challenge
        grant were eligible to release Federal matching funds; and 2) endowment expenditures are made in accor-
        dance with the terms of the budget as approved by NEH and any amendments. Our review was conducted in
        accordance with Government Auditing Standards as promulgated by the Comptroller General of the United
        States. The scope of our review was limited to the gifts included in the first certification report submitted by
        the National Yiddish Book Center (NYBC) for the challenge grant.

        Based on the results of our review, we concluded that all of the gifts certified failed to meet the criteria for eli-
        gibility as established by the NEH. The documentation provided by the NYBC to support gifts included in the
        certification report did not completely satisfy the internal recordkeeping requirements for matching gifts. Also,
        the NYBC did not have accounting procedures to specifically identify NEH challenge grant funds, matching
        gifts, and related expenditures in the general ledger. We made specific recommendations to address the
        findings noted.

                        Follow-up to Limited Audit Report on Gifts Certified under Challenge Grant 

                                           to the National Yiddish Book Center

                                             August 28, 2009; OIG-09-03 (EA) 


        We completed a follow-up review of the response submitted by the National Yiddish Book Center (NYBC) to
        the limited audit report on gifts certified under challenge grant CH-50435-08 [OIG-09-02 (EA)]. The NYBC
        revised and resubmitted Certification Report No. 1 to include a single gift. We concluded, based on the re-
        sults of our follow-up review, that the gift certified meets the criteria for eligibility as established by NEH to
        match the challenge grant. We also determined that accounting procedures developed by NYBC in response
        to the limited audit are adequate and have been implemented to effect the tracking of revenue and expendi-
        tures associated with the NEH challenge grant.

                                                  OVERHEAD DESK REVIEWS

        During the six-month period ended September 30, 2009, the OIG completed 10 overhead desk reviews
        (ODRs) for NEH grantees requiring indirect cost rates, (see page 3). The reviews were done in accordance
        with the PCIE/ECIE Quality Standards for Inspections. The results of the ODRs were transmitted to the As-
        sistant Chairman for Planning and Operations, who negotiated the indirect cost rates with the grantees.

        The OIG will no longer be performing overhead desk reviews. This function has been transferred to NEH
        management.
                                              SINGLE AUDIT ACT REVIEWS

        For the past several years, the budget for grants amounted to approximately 82 percent of the total NEH
        budget. The Single Audit Act Amendment of 1996 covers many NEH grantees. Grantees expending
        $500,000 or more in Federal dollars per annum are required to obtain an OMB Circular A-133 audit. The ob-
        jective of the audit is to determine whether the recipients expend Federal funds according to applicable laws
        and regulations. The OIG receives OMB Circular A-133 reports from other Federal agencies (primarily the
        Department of Health and Human Services), state and local government auditors, independent public ac-
        countants, and grantees.

        During the six-month period ended September 30, 2009, we reviewed 97 OMB Circular A-133 audit reports.
        None of the reports contained findings that required reporting by the OIG to NEH management.



NEH OIG Semiannual Report                                        4                                               September 30, 2009
                                   AUDIT AND REVIEW ACTIVITIES 


                                                 WORK IN PROGRESS

     Limited Audit ~ Humanities Texas

     The principal objectives of this limited audit are to determine (1) that the gifts included in the organization’s first
     certification report under an NEH challenge grant are eligible to release Federal matching funds; and (2) that a
     system is in place to monitor wage rates in accordance with the NEH Challenge Grant guidelines for compli-
     ance with the Davis-Bacon Act. The challenge grant provides support for the restoration of a historic building.

     Limited Audit ~ Museo de Las Americas

     The principal objectives of this limited audit are to determine (1) that gifts included in the organization’s certifi-
     cation reports are eligible to release Federal matching funds; and (2) that endowment expenditures are made in
     accordance with the terms and conditions of the budget as approved by NEH and any amendments.

     This audit was requested by the Office of Challenge Grants and the Office of Grant Management because the
     grantee did not provide final reports.

     Limited Audit ~ Reginald F. Lewis Museum

     The principal objectives of this limited audit are to determine (1) that gifts included in the organization’s certifi-
     cation reports are eligible to release Federal matching funds; and (2) that endowment expenditures are made in
     accordance with the terms and conditions of the budget as approved by NEH and any amendments.

     This audit was requested by the Office of Challenge Grants and the Office of Grant Management because the
     grantee did not provide final reports.

     Limited Audit ~ Wyoming Humanities Council

     The objective of this limited audit is to determine if the cost-sharing requirement applicable to NEH grant SO-
     50059-04 was satisfied and that the Council’s share of outlays, as reported to the NEH, is substantiated and
     complies with the applicable NEH guidelines.

     Cost Incurred Audit ~ Medieval Academy of America

     The principal objective of this audit is to determine if expenditures were in compliance with the terms and condi-
     tions of NEH grant RO-50325-08.

     Federal Managers’ Financial Integrity Act (FMFIA) Review

     We are conducting this review to determine if NEH is complying with the Act. FMFIA requires Federal manag-
     ers to establish a continuous process for evaluating, improving, and reporting on the internal controls and ac-
     counting system for which they are responsible. In addition, FMFIA requires that each year the agency head
     report to the President and Congress on the status of management financial controls.

     Pre-Award Survey ~ Center for Independent Documentary

     The objective of this review is to obtain information to determine the adequacy of the organization’s accounting
     system, management controls and policies and procedures designed to administer grant funds.




NEH OIG Semiannual Report                                      5                                                 September 30, 2009
                                  AUDIT AND REVIEW ACTIVITIES 


                                       WORK IN PROGRESS (Continued)

    FISMA Review ~ Securing PII Collected in Background Investigations and/or NACI for HSPD-12

    The objectives of this review are to:

         (1) Determine that the NEH ~ Office of Human Resources (OHR) has a system in place to secure the per-
             sonally identifiable information (PII) collected from the background investigation form and the National
             Agency Check with Written Inquiry (NACI); and

         (2) Determine that the system is in compliance with applicable Federal law, regulations, and NEH and
             OHR policies and procedures.




NEH OIG Semiannual Report                                    6                                             September 30, 2009
                                     INVESTIGATIVE ACTIVITIES 

                                                     BACKGROUND


  The Inspector General Act provides the authority for the Office of Inspector General to investigate possible viola-
  tions of criminal or civil laws, administrative regulations, and agency policies, which relate to the programs and
  operations of the NEH. The OIG Hotline, e-mail address, and regular mail are efficient and effective means of re-
  ceiving allegations or complaints from employees, grantees, contractors, and the general public. The OIG has
  obtained assistance from other OIGs, the Federal Bureau of Investigation, the Postal Inspection Service, and other
  investigative entities as necessary.

  When the OIG receives a complaint or allegation of a criminal or administrative violation, we make a determination
  of the appropriate action to take. The result could be an audit, an investigation, a referral to another NEH office or
  division, a referral to another Federal agency, or no action.

  During the past several years, the OIG has frequently received Hotline contacts and did not have sufficient re-
  sources to complete the inquiry or investigation in a timely manner. Therefore, to alleviate this problem, we have
  been inquiring of other OIGs concerning their willingness and ability to assist us on an “as needed” basis under a
  reimbursable agreement. Several OIGs responded they would consider performing work for us on a case-by-case
  basis, depending on the availability of their staff to assist us.


                                                 OPEN AT APRIL 1, 2009

  Two files were open at April 1, 2009.

  1. An NEH employee performing timekeeping duties falsified her personal timesheets over a period of five years.
  The amount stolen from NEH amounted to approximately $35,000. The NEH Office of Human Resources discov-
  ered the problem. Administrative action was taken and the employee was terminated. The OIG presented informa-
  tion concerning this matter to the Department of Justice Criminal Division (DOJ). The DOJ did not accept the case
  and we closed the file.

  2. A former employee of a recipient of an NEH fellowship grant alleged that the project director only spent about 20
  hours on the project and received $40,000 from the NEH. The person stated that he and the project director only
  made copies of material previously worked on by the project director. We reviewed the grantee’s file and deter-
  mined that the case would be cost-prohibitive to pursue.


                      CONTACTS DURING THE SIX-MONTH PERIOD ENDED SEPTEMBER 30, 2009

  We received eight Hotline contacts during the current reporting period. Three contacts were not applicable to NEH.
  Three were referred to the appropriate NEH division/general counsel and subsequently closed. Two concerned the
  same state humanities council. We investigated the first case and determined it had no merit. Later, we received
  additional information on the same matter and initiated another case. We are still working on this matter.


                                            OPEN AT SEPTEMBER 30, 2009

  One matter is open as of September 30, 2009.


                               MATTERS REFERRED TO PROSECUTIVE AUTHORITIES

  We did not refer any matters to prosecutive authorities during the current reporting period.




NEH OIG Semiannual Report                                    7                                            September 30, 2009
                             INVESTIGATIVE ACTIVITIES (Continued)


                                          HOTLINE AND PREVENTION ACTIVITIES

     We maintain a toll-free Hotline phone number, an agency e-mail address, and an internet address to provide
     additional confidentiality for those persons bringing matters to the attention of the OIG. We periodically issue
     agency-wide e-mail messages informing NEH staff of violations that are reportable to the OIG. We also send
     e-mail messages several times during the year to inform NEH staff about the OIG operations. Posters advis-
     ing staff to contact the OIG are displayed throughout the agency’s facilities.



                                           SUMMARY OF INVESTIGATION ACTIVITY



                                             Open at beginning of period               2



                                          Matters brought to the OIG during            8
                                                 the reporting period



                                              Total investigative contacts            10

                                        Closed, referred, or no action needed          9
                                             during the reporting period

                                                Open at end of period                  1



                                                   INVESTIGATION MANUAL

          We have been developing an investigation manual that will meet the standards of the President’s Council on
          Integrity and Efficiency. The manual has been drafted, however, it needs to be edited since we do not have
          any criminal investigators on our staff. If we determine a case involves a crime, we will ask the Federal Bu-
          reau of Investigations or another Federal Inspector General for assistance. We plan to have the manual com-
          pleted and put into operation within the next several months.




NEH OIG Semiannual Report                                   8                                             September 30, 2009
                                               OTHER ACTIVITIES 


                                     REGULATORY AND LEGISLATIVE REVIEWS


The Inspector General Act of 1978, as amended, requires the Office of Inspector General to review proposed legisla-
tion and regulations. The reviews are to assess whether proposed legislation and/or regulations (1) affect the econ-
omy and efficiency of agency programs and operations, and (2) contain adequate internal controls to prevent and de-
tect fraud and abuse. During this period, no legislative reviews were required.


                                           WORKING WITH THE AGENCY

OIG staff attended various NEH meetings – panel meetings (where grant applications are reviewed by outside con-
sultants), pre-council meetings (where program staff discuss panel review results with the Chairman and his immedi-
ate staff), and the National Council meeting. Also, the IG or Deputy IG attends the Chairman’s monthly policy group
meetings. The Office of Inspector General contributes to the discussions but does not participate in policymaking.

During the last semiannual period, the Inspector General initiated a meeting with the Assistant Chairman for Pro-
grams and the Division Directors to discuss the involvement of OIG staff in meetings convened by NEH with grant
project directors. As a result, the OIG made it’s first presentation about the OIG and the OIG Hotline during a meet-
ing with grant project directors that received awards from the Office of Digital Humanities.


                            PARTICIPATION ON THE COUNCIL OF INSPECTORS GENERAL 

                                        ON INTEGRITY AND EFFICIENCY


The Inspector General Reform Act of 2008, Public Law 110-409, amended the Inspector General Act of 1978 and
established the Council of Inspectors General on Integrity and Efficiency (CIGIE). The CIGIE is comprised of all In-
spectors General whose offices are established by the Inspector General Act of 1978, those that are Presidentially-
appointed/Senate-confirmed, and those that are appointed by agency heads (designated Federal entities). During
the six-month period ending September 30, 2009, OIG staff regularly attended CIGIE meetings and provided input.
The Inspector General is a member of the Grant Fraud Committee (a subcommittee of the National Procurement
Fraud Task Force) and participates in the Misconduct in Research meetings. The Deputy IG attends meetings of
the Federal Audit Executive Council (FAEC) and the monthly meetings of the Financial Statement Audit Network (a
subcommittee of the FAEC). One senior auditor regularly attends the Assistant Inspector General for Investigations
(AIGI) meetings.

                                         INTRA-GOVERNMENTAL ACTIVITY

Congressional Inquiry

In May 2009, we responded to an inquiry from the Honorable Darrell E. Issa, Ranking Member of the United States
House of Representatives, Committee on Oversight and Government Reform. The inquiry was a follow-up to infor-
mation provided to former Chairman Henry A. Waxman. The subject matter concerned open recommendations
made by NEH auditors. The NEH and the OIG work diligently to resolve these recommendations.


Collaboration with the National Science Foundation ~ Office of Inspector General

OIG staff is participating in a joint investigative effort concerning a major media grantee. The joint effort involves IG
staff from three (3) Federal agencies. NSF ~ OIG is leading the investigation.




NEH OIG Semiannual Report                                    9                                              September 30, 2009
                                       OTHER ACTIVITIES (Continued)

                                               OIG INTERNET AND INTRANET

  The OIG has posted several semiannual reports on the internet and on the NEH intranet. The reports are accessi-
  ble through the NEH homepage and the OIG homepage (http://www.neh.gov/whoweare/OIG.html).

  To advance NEH staff recognition of the OIG mission and responsibilities, we provide links to several other Fed-
  eral agencies such as the Office of Management and Budget, the Government Accountability Office, the Office of
  Government Ethics, and the IGNET.

                                                  TECHNICAL ASSISTANCE

  Throughout the reporting period, OIG staff provided technical help to NEH grantees and independent public ac-
  countants about various matters. Generally, these involve the preparation of indirect cost proposals and imple-
  mentation of the audit requirements of OMB Circular A-133.


                                       “AUDIT READINESS” AWARENESS CAMPAIGN

  The Office of Inspector General executes an awareness campaign via e-mail. The objective of the campaign is to
  distribute guidance that would assist recipients of NEH grants in their efforts to preclude unfavorable outcomes
  should the organizations’ NEH grants be selected for audit. The e-mail communication emphasizes the importance
  of the recipients’ review of and adherence to the specific NEH grant terms and conditions as well as the laws and
  regulations applicable to all Federal awards. We remind the recipients that they are stewards of Federal government
  funds and that they must comply with the OMB Circulars and the terms and conditions of the grant award. High-
  lighted in the e-mail communications are specific areas wherein problems are commonly found during audits of NEH
  grantees and links to appropriate guidance materials and resources. We also mention the importance of effective
  internal controls and the President’s Council on Integrity and Efficiency, Report on National Single Audit Sampling
  Project. The e-mail communications are sent to project directors and grant administrators identified for all non-profit
  awardees.

  During the six-month period ending September 30, 2009, e-mail communications were sent as noted below. We
  have reasonable assurance that all of the awardees received a copy of the communication.



                      NEH Office or Division                       Number of                 Number of E-mails
                                                                   Awardees                       Sent*
                Division of Public Programs                           34                           55
                Division of Education Programs                           30                              53
                Division of Research Programs                            7                              12
                Division of Preservation and                             6                              10
                Access
                Office of Digital Humanities                             4                               8
                Office of Challenge Grants                               2                               4
                 * There were several instances where either the project director and the grant administrator were
                 the same or we did not have any contact information for an individual.




NEH OIG Semiannual Report                                        10                                                  September 30, 2009
                                    OTHER ACTIVITIES (Continued)

                                       OBSERVATION OF NEH COOP EXERCISE


     An OIG auditor observed the NEH exercise to test the agency’s new Continuity of Operations Plan
     (COOP). The test had the following limited objectives:

               1. 	   Exercise the NEH alert, notification, and deployment procedures;
               2. 	   Exercise the NEH continuity implementation and operational procedures;
               3. 	   Review and update the viable elements of the NEH continuity capability; and
               4. 	   Assess NEH’s ability to identify and prioritize functions and conduct operations from pre-
                      planned alternate locations.

     The exercise was produced based on guidance set forth in the Federal Emergency Management
     Agency Eagle Horizon Exercise Plan. A “post-exercise” discussion was held in which participant and
     observer comments were gathered in order for the Exercise Director to produce a report and a COOP
     improvement plan.

     The OIG auditor noted that the limited objectives for the exercise were generally met and provided
     comments during the “post-exercise” discussion concerning the limitations of the COOP that need to be
     addressed.




NEH OIG Semiannual Report                                        11	                                           September 30, 2009
                              FY 2009 MANAGEMENT CHALLENGES 

                                   AS OF SEPTEMBER 30, 2009 


                                                      BACKGROUND

   For the past several years in the September 30th Semi-Annual Report, the Office of Inspector General has submit-
   ted an annual statement of what we consider to be the most important management and performance challenges
   requiring action by the National Endowment for the Humanities.

   The agency has made significant improvements in several areas and we are happy to note that the financial man-
   agement system is not on this year’s list of challenges. Grants Management was added last year to emphasize that
   monitoring of the grants needs to be strengthened and consistent throughout the NEH.

   The most serious challenges for the agency continue to be:

      Strengthening Information Security
      Developing Outcome-Based Performance Measurements in Accordance with the Results Act
      Strategic Management of Human Capital
      Continuity of Operations Planning
      Grants Management

   Strengthening Information Security

   NEH has taken positive action to improve the security of the agency’s information system. During the past couple
   of years, the agency has followed OMB and NIST guidance more vigorously. NEH is currently providing computer
   hardware and software to the National Archives and Records Administration (NARA) for use in managing their grant
   administration program. NEH has determined that security features, such as firewalls, minimize the security risks
   associated with these additional responsibilities. NEH has also implemented the Federal Desktop Core Configura-
   tion initiative, which includes guidance on password strength and complexity; therefore this is no longer a challenge
   for the agency.

   While the OIG continues to deem the agency would benefit from a full penetration test (including social engineering)
   to determine system weaknesses, the agency has considered the issue and is willing to accept the risks of not hav-
   ing a full penetration test. The OIG also considers employment of a log management system to monitor intrusions
   as a necessary activity to strengthen information security. Log management and review would be a first step to pro-
   vide a reasonable level of assurance that security incidents are detected, resolved, and reported in a timely man-
   ner. In conjunction with log management and review, the OIG believes that there is a need for the agency to as-
   sess the feasibility of an intrusion detection system.

   While the agency has not had many security incidents, we believe that OIRM needs to continue to verify the accu-
   racy of any incident that occurs and report these incidents to the proper authorities in accordance with NEH policy.

   NEH, like most Federal agencies, is currently investigating moving toward cloud computing. This is an area where
   we believe future challenges will be found. The OIG is working with the Office of Information Resources Manage-
   ment (OIRM) to assist in this move. We have offered to review plans that the agency will be developing to ensure
   that internal and security controls are in place and are based on NEH’s risk assessment. The OIG will also work
   with OIRM to ensure that any contracts with outside parties contain what we deem to be acceptable and verifiable
   security measures based on the accepted risks.

   Without strong IT security, the confidentiality, integrity and availability of the agency’s information are threatened.
   The agency needs to continue their comprehensive security review of the IT security program. This review should
   encompass prioritizing and assessing implementation of existing requirements as shown on the Plan of Action and
   Milestones that the agency compiles, and updating this document accordingly.




NEH OIG Semiannual Report                                    12                                             September 30, 2009
                            FY 2009 MANAGEMENT CHALLENGES 

                            AS OF SEPTEMBER 30, 2009 (Continued) 


 The agency is currently evaluating the effectiveness of the IT security organizational structure and policy enforce-
 ment efforts through FISMA and the independent IT reviews done by OIRM. We believe this needs to continue.

 We will continue to report IT security as a management challenge and potential risk to allow NEH management to
 continue focus on this area.

 Developing Outcome-Based Performance Measurements in Accordance with the Results Act

 NEH has made progress over the past several years. However, more effort is required to make the case for justify-
 ing NEH as a positive results-oriented organization. In the past, NEH has relied heavily on anecdotal examples of
 success. NEH currently measures outputs rather than outcomes. The OIG recognizes that measuring the benefits
 of many NEH programs is difficult. However, program offices and divisions should gradually collect outcome-
 related data from grantees. As an example, while we have learned that a high school teacher uses knowledge
 gained at a summer seminar during instruction to approximately 250 students a year, we do not know how the stu-
 dents are affected. Do they read more books on the topic, are they thinking about taking more courses on the
 same topic in college? What is the actual effect of a summer seminar on the students of the teacher attending the
 seminar? Further, what does the school principal and the department chair see as the outcome of the teacher tak-
 ing the seminar? These measurements would have to be tracked several years after the teacher attended the
 seminar.

 We believe obtaining outcome-based data from grantees would be more indicative for performance measurement
 than collecting output data. We recognize that relying on data quality and evaluating program effectiveness based
 on information generated by grantees does not provide a comfort level of accurate information. The GAO and other
 OIGs have noted numerous incidences of high error rates in grantee-reported performance data and this raises
 concerns about the use of such data for decision-making. Nevertheless, obtaining outcome information would be a
 significant improvement. However, the agency needs to develop measurements that are not solely dependent on
 data generated by grantees. Possibly, the NEH can develop on a statistical basis, a methodology to gather infor-
 mation after the grant is completed to measure the objective outcome of a program, not just a grant.

 Although the agency is making some progress, especially concerning the Digital Humanities Start-up grants, we are
 not convinced that the “White Paper” that all grantees will submit upon project completion, including lessons
 learned, will be transferable to other programs, (i.e., larger long-term projects). However, we acknowledge that the
 agency is attempting to move in the right direction.

 Strategic Management of Human Capital

 Human capital is a high-risk for the Federal government due to the large number of baby-boomers that are ex-
 pected to retire in the next three or four years. NEH will face the same situation. NEH recognized this problem
 when four staff from the Office of Grant Management (OGM) indicated they would retire within a one-year period.
 All four staff had over 30 years of experience in that office. NEH was proactive and brought replacement staff on
 board before three of the four staff retired. Because of this succession planning strategy, the new staff, under the
 guidance of some of the remaining long-term staff, has done well in processing grant actions and applications.
 NEH deserves much credit for their approach to address the human capital challenge.

 The NEH responded last year that they sent new staff to several training courses and provided on-the job training.
 We applaud NEH and the OGM for this action. However, the OIG has noticed errors in NEH award documents,
 (i.e., omission of pertinent IDC restrictions and instructions).




NEH OIG Semiannual Report                                   13                                           September 30, 2009
                         FY 2009 MANAGEMENT CHALLENGES 

                        AS OF SEPTEMBER 30, 2009 (Continued) 


  Additional Action Needed

     NEH can ensure that the next wave of OGM staff retirements will go smoothly by providing grant manage-
       ment training to the recently hired employees. Off-site training would afford the new staff the benefit of learn-
       ing how other agencies handle problems while strengthening their knowledge and understanding of the Office
       of Management and Budget Circulars that pertain to and effect grant administration. This will advance the
       recent hires towards becoming efficient grant administrators.

     The OGM has well-written procedure manuals with standard forms and language used in the letters to appli-
       cants and grantees. However, many of the program offices and divisions do not have comparable operations
       manuals. Therefore, it would be beneficial for program offices to document procedures and processes that
       are necessary to perform their work. This would be useful for the next generation of program staff and would
       facilitate consistent processing of grant applications. The NEH stated that the program offices and
       divisions are using generic forms and letters and are standardizing and sharing office policy procedures.
       This is very commendable; however, more progress needs to be made in this area.

     The OIG recommends that NEH develop a comprehensive five-year strategic human capital plan. The plan
       should identify human capital goals and human capital initiatives, including knowledge management and suc-
       cession planning. Knowledge management involves capturing critical information and making the right infor-
       mation available to the right people at the right time to assure that knowledge and experience of the current
       staff is passed on to the next generation of NEH staff. This includes mentoring, early replacement hiring, and
       rehiring annuitants. (NEH has initiated some of these actions and we commend them for their efforts). One
       of the first steps would be to develop a measurement system (workload analysis tool) to determine the FTE
       needs of the agency, especially in the program offices and divisions.

     A critical component in implementing the human capital plan is provision for management succession. Indi-
       viduals with the potential to become managers should be identified, provided on-the-job and formal manage-
       ment/leadership developmental opportunities. This would strengthen organizational stability, the retention of
       institutional knowledge, and the infusion of new talent. Then when the occasion occurs, these staff can be
       promoted to higher positions. This, as part of a human capital plan, should be linked to the agency’s Strategic
       Plan for long-term achievement of the agency’s mission.


  Continuity of Operations Planning

  The agency has developed a Continuity of Operations Plan (COOP). One part of the plan pertains only to infor-
  mation technology, and while extremely important, the agency relies on paper documents in conducting its busi-
  ness. In fiscal year 2009, the agency developed and performed a high level test of the COOP. A more extensive
  test of the COOP is planned for 2010. However, there still remains the need to fine-tune the COOP to include an
  out-of-area site, with training and testing of the actual ability to process transactions that are deemed essential.
  So this challenge still exists, but at a different level.

  The plan now contains an agreement with the Institute of Museum and Library Services wherein either agency
  will assist the other in case a disaster occurs. The agreement only covers a disaster if it occurs in either one of
  the buildings occupied by each organization. The IMLS is located in Washington DC. If the downtown area of
  DC were closed, then execution of the agreement would not be viable. The agreement covers the assistance of
  Information Technology Equipment and it appears reasonable for a building disaster. One major area that it does
  not cover is payments to staff, suppliers, grantees, and contractors where payments are made through the U.S.
  Treasury system.




NEH OIG Semiannual Report                                    14                                         September 30, 2009
                             FY 2009 MANAGEMENT CHALLENGES 

                            AS OF SEPTEMBER 30, 2009 (Continued) 



  Having a formal, inclusive (covering all NEH operations), and tested COOP is a valuable tool for NEH readiness
  for a sudden event where the staff may not be able to work in the Old Post Office building for several weeks or
  more. NEH needs a plan that will have staff working within an acceptable timeframe if a manufactured or natural
  disaster prevented employees’ admission to the building. NEH has taken positive action by obtaining the services
  of a software program where staff can work from home and access the NEH computer system. However, if no
  NEH staff has access to the building, staff may not be able to remotely access the computer system.

  The plan must take into consideration the agency’s heavy reliance on paper files and documentation. If the build-
  ing is lost, NEH would lose those documents and records, as they are not adequately secured. In addition, the
  agency needs a plan that will allow it to make payments through the U.S. Treasury system.

  The OIG understands that the agency has a committee working on finalization of the plan.


  Grants Management

  We are including grants management as a challenge because of the inherent nature of a grant. A grant is financial
  assistance for an approved activity with performance responsibility resting primarily on the grantee, with little or no
  Government involvement in the funded activity. Although NEH has few incomplete grants (determined based on
  the grantee submitting a final financial and narrative report), grant oversight and monitoring is a concern of OIG.
  NEH does not have agency-wide standard operating procedures concerning grant oversight and monitoring. For
  example, some program officials visit grantees on a regular basis, while others do not. The agency would benefit
  from an agency-wide policy wherein adverse conditions that may delay completion of a grant-funded project are
  identified, thus requiring more oversight and monitoring. The additional monitoring can be accomplished with site
  visits, telephone and teleconference, email, and by requesting specific documentation be sent to NEH.

  The Single Audit Act (OMB Circular A-133 audits) was enacted to provide audit coverage for grant-making agen-
  cies. Originally, grantees receiving $25,000 or more were subject to limited audit requirements; and grantees re-
  ceiving $100,000 or more were subject to the Circular. These audits were to give agencies such as NEH, over-
  sight of more than grant expenditures. The law has been amended wherein the requirement for an audit is now
  $500,000 or more of Federal expenditures by a grantee in its fiscal year. This threshold is high for NEH grantees,
  and consequently, a significant number of non-profit organizations do not receive audit coverage. Single Audits of
  colleges and universities, and state and local governments “include NEH” awards; however, NEH grants are too
  small to be included in audit testing. To further compound this situation, the OIG is troubled about the adequacy
  and reliability of information being reported in these audits. Public accountants or state auditors perform the audits.
  When the OIG conducted Quality Control Reviews of public accountants, we found many deficiencies in their work.
  In June 2007, the President’s Council on Integrity and Efficiency issued a report stating that almost half of the audit
  reports had serious deficiencies making many unreliable.

  We continue to include this as management challenge because of NEH’s reliance on the grantee’s self-monitoring
  reports. In addition, the divisions do some on-site monitoring, but not all monitoring is done on a risk-based ap-
  proach. We strongly suggest each program develop written policies, procedures, and guidance on the selection of
  grantees to visit based on the risk involved.




NEH OIG Semiannual Report                                   15                                            September 30, 2009
                            PRIOR AUDIT REPORTS UNRESOLVED 



     	 Several recommendations from prior FISMA and Information Technology Security reviews remain to
         be addressed. The staff of the NEH Office of Information Resources Management is currently working
         on implementing some of the recommendations.




NEH OIG Semiannual Report                                16	                                           September 30, 2009
                                                  TABLE I


                               REPORTING REQUIREMENTS 



       The Inspector General Act of 1978, as amended (Public Law 100-504), specifies reporting
       requirements for semiannual reports. The requirements are listed and cross-referenced to the
       applicable pages in this report.


       IG Act Reference       Reporting Requirements                                          Page

       Section 4(a)(2)        Regulatory and Legislative Reviews……………………………… 9

       Section 5(a)(1)        Significant Problems, Abuses, and Deficiencies………………… *

       Section 5(a)(2)        Recommendations for Corrective Action ………………………… *

       Section 5(a)(3)        Prior Significant Recommendations Unimplemented…………… *

       Section 5(a)(4)        Matters Referred to Prosecutive Authorities……………………… 7

       Section 5(a)(5)        Instances Where Information Was Refused or Not Provided…… *

       Section 5(a)(6)        List of Reports Issued………..……………………………………… 3

       Section 5(a)(7)        Summary of Reports Issued.………………………………………. 4-6

       Section 5(a)(8)        Audit Reports - Questioned Costs….……………………………… 18

       Section 5(a)(9)        Audit Report - Funds To Be Put to Better Use.…….…………….. 18

       Section 5(a)(10)       Prior Audit Reports Unresolved…………………………………..… 16

       Section 5(a)(11)       Significant Revised Management Decisions………………………. *

       Section 5(a)(12)       Significant Management Decisions with which OIG Disagreed…. *



        * None this period




NEH OIG Semiannual Report                                 17                                          September 30, 2009
                                                     TABLE II 

                                        INSPECTOR GENERAL-ISSUED REPORTS 

                                              WITH QUESTIONED COSTS 



                                                                               Number     Questioned      Unsupported
                                                                             Of Reports    Cost             Cost
         A. 	 For which no management decision has been made by the             -1-        $363,747         $-0-
              commencement of the reporting period.

         B. 	 Which were issued during the reporting period.                    -1-          $37,213        $-0-

                                   Subtotals (A+B) 	                            -2-        $400,960         $-0-

         C. 	 For which a management decision was made during
              the reporting period.

                  i. 	 Dollar value of disallowed costs.                         -0-        $ -0-           $ -0-

                  ii. 	 Dollar value of costs not disallowed (grantee            -1-        $37,213         $ -0-
                        subsequently supported all costs).

                  iii. 	 Dollar value of costs not disallowed based on the       -0-        $ -0-            $ -0-
                         “Value of Services Received.”

         D. 	 For which no management decision has been made by the              -0-            -0-         $ -0-
              end of the reporting period.

         E. 	 Reports for which no management decision was made within           -1-       $363,747         $ -0-
              six months of issuance.




                                                    TABLE III 

                                       INSPECTOR GENERAL-ISSUED REPORTS 

                              WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE 



                                                                                                       Number        Dollar
                                                                                                       Of Reports    Value

         A. 	 For which no management decision has been made by the commencement                        -0-         $-0-
              of the reporting period.

         B. 	 Which were issued during the reporting period.                                            -0-         $-0-

         C. 	 For which a management decision was made during the reporting period.                      -0-        $-0-

                  i. 	Dollar value of recommendations that were agreed to by management.                            $-0-

                  ii. Dollar value of recommendations that were not agreed to by 	                                  $-0-
                      management.

         D. 	 For which no management decision was made by the end of the reporting period.              -0-        $-0-




NEH OIG Semiannual Report                                       18	                                             September 30, 2009
                            GLOSSARY OF AUDIT TERMINOLOGY

        Questioned Cost - A cost that is questioned by the OIG because of an alleged violation of a provision
        of a law, regulation, contract, grant, cooperative agreement, or other agreement or document
        governing the expenditure of funds; because such cost is not supported by adequate documentation;
        or because the expenditure of funds for the intended purpose is unnecessary or unreasonable.

        Unsupported Cost - A cost that is questioned because of the lack of adequate documentation at the
        time of the audit.

        Disallowed Cost - A questioned cost that management, in a management decision, has sustained or
        agreed should not be charged to the government.

        Funds Be Put To Better Use - Funds, which the OIG has disclosed in an audit report, that could be
        used more efficiently by reducing outlays, de-obligating program or operational funds, avoiding
        unnecessary expenditures, or taking other efficiency measures.

        Management Decision - The evaluation by management of the audit findings and recommendations
        and the issuance of a final decision by management concerning its response to such findings and
        recommendations.

        Final Action - The completion of all management actions, as described in a management decision,
        with respect to audit findings and recommendations. When management concludes no action is
        necessary, final action occurs when a management decision is made.

        Source: Excerpt from Section 106(d) of the Inspector General Act Amendments of 1988 (P.L. 100-
        504).




NEH OIG Semiannual Report                                   19                                          September 30, 2009
